<html>
<title> - OPEN HEARING WITH HON. JOHN O. BRENNAN, DIRECTOR, CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 114-598]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-598

                  OPEN HEARING WITH HON. JOHN O. BRENNAN, 
                 DIRECTOR, CENTRAL INTELLIGENCE AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, JUNE 16, 2016

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


         Available via the World Wide Web: http://www.fdsys.gov
         
                               __________
                               
                               
  

                  U.S. GOVERNMENT PUBLISHING OFFICE
22-968 PDF                  WASHINGTON : 2017                     
----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a> 

         
                   
                   
                   SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
              DIANNE FEINSTEIN, California, Vice Chairman

JAMES E. RISCH, Idaho                RON WYDEN, Oregon
DANIEL COATS, Indiana                BARBARA A. MIKULSKI, Maryland
MARCO RUBIO, Florida                 MARK WARNER, Virginia
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             MAZIE K. HIRONO, Hawaii
TOM COTTON, Arkansas
                 MITCH McCONNELL, Kentucky, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                  Desiree Thompson Sayle, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                             JUNE 16, 2016

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Feinstein, Hon. Dianne, Vice Chairman, a U.S. Senator from 
  California.....................................................     2

                                WITNESS

Brennan, Hon. John O., Director, Central Intelligence Agency.....     3
    Prepared statement...........................................     8

 
                     OPEN HEARING WITH HON. JOHN O. BRENNAN, 
                       DIRECTOR, CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                        THURSDAY, JUNE 16, 2016

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:03 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Feinstein, Risch, 
Coats, Blunt, Lankford, Cotton, Wyden, Warner, Heinrich, King, 
and Hirono.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'm going to call this hearing to order. I'd 
like to welcome our witness today, Central Intelligence Agency 
Director John Brennan.
    John, you appropriately note in your opening statement that 
this hearing takes place against a backdrop of a heinous act of 
violence, perpetrated by a troubled and evil person. The 
committee has been in consistent contact with the FBI from the 
early morning hours on Sunday and it's been provided a great 
deal of information on the status of the investigation. I know 
that your team, along with your intelligence community 
partners, are also working to determine if the killer had any 
connections to a foreign terrorist group like ISIL.
    Let me thank your officers for what they do and for the 
long hours that they are likely putting in to understand this 
tragedy, while also focusing on a wide range of threats facing 
our Nation.
    Mr. Director, I know your organization understands the 
threat posed by ISIL and there's been much public discussion 
about progress the U.S.-led coalition has made to contain ISIL 
geographically, to degrade its finance and media operations, 
and to remove its fighters from the battlefield.
    However, while progress may have been made against those 
goals, you note in your statement that our efforts have not 
reduced the group's terrorism capability and global reach. That 
assessment is significant.
    I want to take this moment to speak not only to you, but 
also to the American people. We live in an open society, one 
that values freedoms and diversity. The Islamic State is 
recruiting individuals by leveraging that freedom and taking 
advantage of misguided hate to attack us, and in doing so to 
divide us.
    ISIL's global battlefield now includes the United States 
and we cannot stand idly by. We must take the fight to them. We 
must attack them where they raise money, where they plan, where 
they recruit, and we must deny them a safe haven.
    We cannot negotiate with extremists who seek only to kill, 
and I don't think we will. I'm not willing to accept the events 
of San Bernardino and Orlando as the new normal, nor should 
anyone. We should be able to live securely in a free society 
and I think we will. And we're not alone. Our friends in 
Europe, Asia, and across the world should be able to go to 
sporting events, concerts, dance clubs, and experience life 
with their families in safety.
    We will unite as a Nation and as a coalition to confront 
ISIL and deny them safe haven. But we can only do so with a 
realistic, proactive, aggressive, and well-defined strategy. 
And, frankly, we have to own it and embrace it.
    Now is not the time to pay lip service to these threats. 
The sooner we as a Nation realize that there is only one path 
for us to take at this juncture, the sooner we will destroy 
ISIL's capabilities and ensure the continued safety of our 
Nation.
    John, I don't make these comments lightly and I'm confident 
we will highlight during your testimony these and other threats 
to our Nation. But before I turn to the Vice Chairman, I would 
ask you to relay something to your entire organization: our 
thanks and our appreciation for their work. Your officers work 
in the shadows, often in austere and dangerous environments, 
day in and day out, to keep us safe. Their selfless dedication 
to their fellow citizens should be commended and we are in debt 
for that service.
    Mr. Director, I thank you for being here today and I now 
turn to the Vice Chairman for any comments she might have.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, VICE CHAIRMAN, A 
                  U.S. SENATOR FROM CALIFORNIA

    Vice Chairman Feinstein. Thanks very much, Mr. Chairman. I 
don't want to repeat what you said. I think you've said it very 
well and I'm very strongly in agreement with it. But I'd like 
to talk about a slightly different dimension.
    I think it's becoming apparent that the tragedy of the last 
weekend in Orlando highlights one of the great difficulties 
this Nation faces with the rise of the Islamic State. This 
enemy is very different from past adversaries like Al Qaida, 
because ISIL not only seeks to control territory in several 
countries, but is taking advantage of technology and social 
media to recruit fighters and inspire terrorist attacks far 
from the battlefield.
    This trend concerns me greatly. According to the President 
and the FBI Director, the killer in Orlando was inspired at a 
minimum, influenced by on-line terrorist material. Similar on-
line propaganda played important roles in the shootings in San 
Bernardino, Chattanooga, Garland, Texas, as well as Fort Hood, 
Texas, and other attacks.
    So, Director Brennan, I hope you can assure this committee 
and the American people, because this is an opportunity to do 
so, that the CIA is doing everything in its power to understand 
how these foreign organizations work and operate. I think such 
knowledge is essential to help policymakers shape laws and 
counter ISIL's on-line efforts, so that we stop them from 
incessantly preying on at-risk individuals and radicalizing 
them to conduct such heinous crimes.
    I'd like to ask that you update us on CIA's understanding 
of the extent and reach of ISIL and the implications for those 
of us here at home and for our friends and allies overseas. I 
think there's been some important progress lately and I think 
it's important to share that progress with the people. On 
Tuesday, the President publicly listed some of the senior 
leaders of ISIL who have been killed, and I think that's 
welcome news.
    Secondly, we would like the CIA assessment on whether the 
13,000 coalition air strikes against ISIL have been effective 
and what sorts of targets have most set back ISIL's efforts.
    We know that Iraqi forces have surrounded Fallujah and 
begun to move into the city. Iraqi forces have recently 
liberated the strategic town of Hit and broke the ISIL siege of 
Haditha. ISIL has now lost nearly half the populated territory 
it once controlled in Iraq. ISIL continues to lost ground in 
Syria as well. A coalition of local forces is now pressuring 
the key town of Manbij, which will cut ISIL's smuggling routes 
into Turkey, hopefully, and put substantial pressure on the 
capital of Raqqa.
    In sum, I think it would be helpful for America to really 
understand whether the anti-ISIL coalition that the United 
States has put together is making progress; if so, how and 
where?
    In addition to ISIL, I would be very interested in hearing 
from you on other global threats to the United States and the 
challenges that you believe we face. In particular, I think all 
of us are concerned about the recent behavior of North Korea, 
the aggressiveness of Russia, China's actions in the South 
China Sea, and the instability in North Africa in particular.
    So I thank you, Mr. Chairman, for holding this hearing and 
I really look forward to the discussion.
    Chairman Burr. Thank you, Vice Chairman.
    Mr. Director, we're going to be joined by a lot of members. 
As is evident, they really don't care what Dianne and I say, 
but when they see that you're on----
    Vice Chairman Feinstein. Speak for yourself.
    [Laughter.]
    Chairman Burr [continuing]. They will be here quickly.
    We again thank you for being here. We thank you for what 
the Agency does day in and day out, and the floor is now yours.

STATEMENT OF HON. JOHN BRENNAN, DIRECTOR, CENTRAL INTELLIGENCE 
                             AGENCY

    Director Brennan. Well, thank you very much, Chairman Burr 
and Vice Chairman Feinstein and members of the committee. Thank 
you for inviting me to speak to you today in an open hearing 
about the Central Intelligence Agency, an Agency and a 
workforce that I am enormously proud to be part of. I am 
privileged every day to lead the women and men of CIA as they 
work around the clock and around the world, often in difficult 
and dangerous locations, to help keep our company strong and 
free and our fellow citizens safe and secure.
    Our hearing today, as you noted, takes place against the 
backdrop of a heinous act of wanton violence that was 
perpetrated against innocents in Orlando, Florida, last 
weekend. We join the family and friends in mourning the loss of 
their loved ones who were killed in the attack, and we extend 
our best wishes for a full and speedy recovery of all those 
injured. This act of violence was an assault on the values of 
openness and tolerance that define us as a Nation.
    In light of the events in Orlando, I would like to take 
this opportunity to offer the committee our assessment of the 
terrorist threat our Nation and citizens face, especially from 
the so-called ``Islamic State of Iraq and Levant,'' or 
``ISIL.'' On the battlefields of Syria and Iraq, the U.S.-led 
coalition has made important progress against ISIL. The group 
appears to be a long way from realizing the vision that Abu 
Bakr Al-Baghdadi, its leader, laid out when he declared the 
caliphate two years ago in Mosul.
    Several notable indicators are trending in the right 
direction. ISIL has lost large stretches of territory in both 
Syria and Iraq. Its finance and media operations have been 
squeezed, and it has struggled to replenish the ranks of its 
fighters, in part because fewer foreign fighters are now able 
to travel to Syria. Moreover, some reports suggest that a 
growing number of ISIL members are becoming disillusioned with 
the group and are eager to follow in the footsteps of members 
who have already defected.
    The anti-ISIL coalition is taking steps to exploit these 
vulnerabilities. In addition to efforts under way to liberate 
cities like Fallujah and Manbij, the coalition is also removing 
ISIL leaders from the battlefield, thereby reducing the group's 
capabilities and its will to fight. Last month, for example, a 
U.S. air strike killed an influential ISIL leader in Al-Anbar.
    ISIL, however, is a formidable, resilient, and largely 
cohesive enemy, and we anticipate that the group will adjust 
its strategy and tactics in an effort to regain momentum. In 
the coming months we can expect ISIL to probe the front lines 
of its adversaries on the battlefield for weaknesses, to harass 
the forces that are holding the cities it previously 
controlled, and to conduct terror attacks against its enemies 
inside Iraq and Syria.
    To compensate for territorial losses, ISIL will probably 
rely more on guerilla tactics, including high-profile attacks 
outside the territory in Syria and Iraq that it currently 
holds. A steady stream of attacks in Baghdad and Damascus 
demonstrates the group's ability to penetrate deep inside enemy 
strongholds.
    Beyond its losses on the battlefield, ISIL's finances are 
also taking a hit. Coalition efforts have reduced the group's 
ability to generate revenue and have forced it to cut costs and 
to reallocate funds. Yet, ISIL is adapting to the coalition's 
efforts and it continues to generate at least tens of millions 
of dollars in revenue per month, primarily from taxation in 
those areas that it controls and from crude oil sales on the 
black and gray markets inside of Syria and Iraq.
    Unfortunately, despite all our progress against ISIL on the 
battlefield and in the financial realm, our efforts have not 
reduced the group's terrorism capability and global reach. The 
resources needed for terrorism are very modest, and the group 
would have to suffer even heavier losses on territory, 
manpower, and money for its terrorist capacity to decline 
significantly.
    Moreover, the group's foreign branches and global networks 
can help preserve its capacity for terrorism regardless of 
events in Iraq and Syria. In fact, as the pressure mounts on 
ISIL we judge that it will intensify its global terror campaign 
to maintain its dominance of the global terrorism agenda.
    Since at least 2014, ISIL has been working to build an 
apparatus to direct and inspire attacks against its foreign 
enemies, resulting in hundreds of casualties. The most 
prominent examples are the attacks in Paris and Brussels, which 
we assess were directed by ISIL's leadership.
    We judge that ISIL is training and attempting to deploy 
operatives for further attacks. ISIL has a large cadre of 
Western fighters who could potentially serve as operatives for 
attacks in the West, and the group is probably exploring a 
variety of means for infiltrating operatives into the West, 
including in refugee flows, smuggling routes, and legitimate 
methods of travel.
    Furthermore, as we have seen in Orlando, San Bernardino, 
and elsewhere, ISIL is attempting to inspire attacks by 
sympathizers who have no direct links to the group. Last month, 
for example, a senior ISIL figure publicly urged the group's 
followers to conduct attacks in their home countries if they 
were unable to travel to Syria and Iraq.
    At the same time, ISIL is gradually cultivating its global 
network of branches into a more interconnected global 
organization. The branch in Libya is probably the most 
developed and the most dangerous. We assess that it is trying 
to necessary its influence in Africa and to plot attacks in the 
region and in Europe.
    Meanwhile, ISIL's Sinai branch in Egypt has established 
itself as the most active and capable terrorist group in all of 
Egypt. The branch focuses its attacks on Egyptian military and 
government targets, but it has also targeted foreigners and 
tourists, as we saw with the downing of a Russian passenger jet 
last October.
    Other branches worldwide, while also a concern, have 
struggled to gain traction. The Yemen branch, for instance, has 
been riven with factionalism, and the Afghanistan-Pakistan 
branch has struggled to maintain its cohesion, in part because 
of competition with the Taliban.
    Finally, on the propaganda front, the coalition is working 
to counter ISIL's expansive propaganda machine. ISIL paints a 
carefully crafted image to the outside world, lauding its own 
military efforts, portraying its so-called ``caliphate'' as a 
thriving state, and alleging that the group is expanding 
globally even as it faces setbacks locally.
    ISIL releases a multitude of media products on a variety of 
platforms, including social media, mobile applications, radio, 
and hard copy medium. To disseminate its official on-line 
propaganda, the group primarily uses Twitter, Telegram, and 
Tumblr, and it relies on a global network of sympathizers to 
further spread its messages.
    In sum, ISIL remains a formidable adversary, but the United 
States and our global partners have succeeded in putting the 
group on the defensive, forcing it to devote more time and 
energy to try to hold territory and to protect its vital 
infrastructure inside of Syria and Iraq. Though this will be a 
long and difficult fight, there is broad agreement in the 
international community on the seriousness of the threats and 
on the need to meet it collectively and decisively.
    It also dominates my conversations with my intelligence and 
security counterparts globally worldwide. I frequently engage 
with them about what we need to do together in terms of 
information-sharing, joint operational activity, and being able 
to complement our respective strengths and capabilities so that 
we can destroy ISIL thoroughly.
    Now, as you well know, CIA is not just a counter-terrorism 
agency. We are a comprehensive intelligence service with a 
global charter, and we are called upon to address the full 
range of 21st century threats. As I often tell young officers 
at CIA, I have never seen a time when our country faced such a 
wide variety of threats to our national security.
    If you run your fingers along almost any portion of the map 
from Asia-Pacific to North Africa, you will quickly find a 
flash point with global implications. China is modernizing its 
military and extending its reach in the South China Sea. North 
Korea is expanding its nuclear weapons program. Russia is 
threatening its neighbors and aggressively reasserting itself 
on the global stage.
    Then there is the cyber domain, where states and sub-
national actors are threatening financial systems, 
transportation networks, and organizations of every stripe 
inside government and out. I particularly appreciate the work 
of this committee to try to come to grips and to address the 
cyber threats we face as a Nation.
    In the face of these many daunting challenges, our Nation 
depends on CIA and our intelligence community partners to help 
keep our company strong and secure. Indeed, in today's volatile 
and complex world policymakers depend on CIA more than ever for 
intelligence, insight, and options.
    If we are to meet the national security challenges that 
confront us, we must constantly adapt and innovate. That is why 
we announced a comprehensive effort last year to modernize our 
Agency for the future. Since launching our modernization 
program just over 15 months ago, we have taken important steps 
to ensure that our Agency fully adapts to the challenges of our 
time.
    Now, we still have work to do, and in some respects we 
always will. That's because modernization is about more than 
lines and boxes on an organizational chart. It is also about a 
mindset, a commitment to innovate constantly so we can keep up 
with an ever-changing world.
    A key part of this mind set is our commitment to making our 
work force as diverse as the world we cover. Just last week, 
the Office of the Director of National Intelligence issued a 
report showing that the intelligence community is significantly 
less diverse than the rest of the federal workforce. This is a 
report that forces those of us in the intelligence community to 
confront some hard truths about who we are and how we are 
performing our mission.
    As this committee knows, CIA recently unveiled a landmark 
effort to make sure that our workforce reflects in our 
attitudes, our backgrounds, our ethnicities, and our 
perspectives the Nation we work so hard to defend. This is both 
a moral and a mission imperative. I truly believe that the 
business case for diversity is stronger for CIA than it is for 
any other organization in the U.S. Government. Diversity not 
only gives us the cultural understanding we need to operate in 
any corner of the globe; it also helps us avoid group-think, 
ensuring we bring to bear a range of perspectives on the 
complex challenges that are inherent to intelligence work.
    Again, I would like to thank the committee for its support 
for the CIA and for our intelligence community partners through 
the course of the year, and I look forward to addressing your 
questions. Thank you.
    [The prepared statement of Mr. Brennan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Mr. Director, thank you for that testimony.
    Note to members: We will do five-minute rounds based upon 
seniority.
    Mr. Director, you lead an organization with unique insight 
into global events, unprecedented access to the entire world, 
and highly trained officers who possess a wide range of talents 
and skills. To the extent that you can discuss in this setting, 
do you believe that you have all the authorities you need to 
accomplish your mission?
    Director Brennan. Senator, I believe that we have a great 
deal of authorities and very important and solemn authorities 
to carry out our mission, and we try to do it to the best of 
our ability. The one area when I look to the future that 
concerns me is in that digital domain, which is why we set up a 
fifth directorate--the first time in 50 years we set up a new 
directorate--so that we're able to understand all of the 
implications, the vulnerabilities, and the opportunities that 
that digital domain presents.
    As I know this committee and others here in the Congress 
are grappling with the issue about the role of government in 
that digital domain, law enforcement, intelligence, and 
security organizations, I do wonder whether or not we as a 
government have the ability to be able to monitor that domain 
from the standpoint of identifying those threats to national 
security that we need, just the way we have within the physical 
domain, the maritime domain, the aviation domain, the consensus 
about how the government has an obligation to protect its 
citizens in those various domains.
    The digital domain is a new domain. It is the network 
frontier. I do not believe our legal frameworks, as well as our 
organizational structures and our capabilities, are yet at the 
point of being able to deal with the challenges in that digital 
domain that we need to have in the future.
    So this is the one area that I encourage the committee, the 
Congress, this Administration, the next administration, to 
continue to work on, particularly as this country is going to 
be part of the Internet of Things, where virtually every type 
of electronic and mobile device is going to be connected to 
this Internet. That interconnectedness gives us tremendous 
convenience in our lives, but it also creates inherent 
vulnerabilities that our adversaries, whether they be nation-
states or individual actors or groups, will take advantage of.
    So that's the area that I'm concerned that the authorities, 
not just of CIA but of FBI and NSA, really need to be looked at 
very carefully.
    Chairman Burr. As you know, the committee is extremely 
engaged in that side and our hope is that we can continue to 
make progress at understanding what the structure should be in 
the future.
    You note in your opening statement that the CIA is not just 
a counter-terrorism agency, but an intelligence service with a 
global charter. Do you believe your organization focuses too 
much of its time and resources on the terrorist threat?
    Director Brennan. I think, as this committee knows very 
well, that the terrorist threat has loomed large since 9-11. It 
has presented a serious threat, not just to our national 
security interests worldwide, but also to our beloved homeland, 
which is why the CIA has been called upon to help to lead this 
fight and to take the fight to terrorist organizations so we 
can defeat them abroad so they're not able to carry out their 
wanton, depraved acts here in our homeland.
    CIA has multiple missions. We have the clandestine 
collection mission, both human and technical. We have the all-
source analytic mission, so that we can provide our 
policymakers in Congress with the insights that they need. We 
have a counter-intelligence mission to make sure that we 
protect ourselves from those adversaries who are trying to 
steal our secrets.
    We also have a covert action mission, which involves a 
paramilitary dimension. Given our roots in the Office of 
Strategic Services during World War II, since our birth in 1947 
every administration has taken advantage of CIA's tremendous 
capabilities in that covert action paramilitary realm.
    As we fight terrorists on the battlefields of Syria and 
Iraq and Yemen and Libya and other areas, I think CIA's 
formidable capabilities in this area are going to be called 
upon increasingly in the future.
    I also would add one other component to those missions, and 
that's on the liaison front, our partners. We need to make sure 
that we develop the partnerships that we need so that we can 
leverage their capabilities, because, as good as CIA is, we are 
not able to confront all these challenges globally 
simultaneously.
    At the same time, we need to develop the professionalism of 
these other services. We want to make sure that they're able to 
fulfil their obligations of intelligence organizations and 
they're not subject to the whims of maybe corrupt political 
masters who are going to try to use them for their own 
political agendas. So as we develop these partnerships, we're 
trying to develop their professionalism as well.
    Chairman Burr. John, a last question. You've been at the 
helm of the CIA for roughly three years now. The world's 
changed dramatically during those three short years. While this 
is not the appropriate venue in which to go into great detail 
in discussion of sources and methods, it's a good opportunity 
for you to speak to the American people to educate them about 
the CIA and in some sense humanize what is a very opaque 
organization to most.
    How has your view of CIA as an organization changed during 
the last three years?
    Director Brennan. Well, Mr. Chairman, thank you. In your 
opening remarks you talked about how CIA officers frequently 
work in the shadows and without the accolades that I think they 
certainly deserve. I first raised my hand and swore allegiance 
to this country on August 5th of 1980 as a young CIA officer 
and worked at CIA for 25 years. During those 25 years and in 
subsequent years, to include the last three years that I've had 
the pleasure and honor to lead the CIA, I am always impressed 
with the expertise, the capabilities, the dedication of 
Americans from every state in this Union who come to CIA 
recognizing that they're frequently going to be maligned 
unfairly because of misrepresentations of their work. But they 
recognize that the work they do is absolutely essential to keep 
their families, their neighbors, their friends, their fellow 
citizens, safe.
    So I truly believe that the Agency is core and essential to 
keeping this country safe and secure from the growing threats 
we face around the globe. Coming back to CIA and being able to 
spend every day with CIA officers, I am just amazed at what it 
is that they're willing to do on behalf of their country.
    I presided over our annual memorial ceremony last month in 
CIA's lobby in front of our Wall of Honor, where 117 stars 
grace that wall and represent CIA men and women who have given 
their lives to this country. They do it, again, without seeking 
praise, public acclamation, but they do it silently, 
selflessly, with great sacrifice to themselves and their 
family. So I am honored to be part of this organization.
    Chairman Burr. Thank you, Director.
    Vice Chairman.
    Vice Chairman Feinstein. Thanks, Mr. Chairman.
    I hope to get in three questions, Director. The first is, 
in listening to your remarks, which I think were a lot of broad 
strokes and very interesting, I wanted to ask you about a 
couple of things that you said. You said that Libya is the most 
dangerous country and the Sinai the most active. You mentioned 
military and governmental targets. Could you explain a little 
bit more about that, please?
    Director Brennan. I talked about Libya, the country where 
there is the most dangerous branch of ISIL outside of Syria and 
Iraq. They have several thousands of individuals who have 
pledged allegiance to ISIL. They now control a portion of the 
Libyan coast around the city of Sirte, where they're able to 
train, develop, and to consolidate their position inside of 
Libya, as well as to use Libya as a potential springboard for 
carrying out operations abroad.
    They've attracted a number of individuals from African 
countries inside of Libya. So therefore I am concerned about 
the growth of Libya as another area that could serve as a basis 
for ISIL to carry out attacks inside of Europe and other 
locations. That is very concerning, particularly since Libya is 
right across from Europe on the Mediterranean, with the refugee 
flows that are going there.
    There's a group within the Sinai, ISIL. It used to be an 
Egyptian terrorist group, Ansar Bayt Al-Maqdis, which was 
basically consumed by ISIL, and that group pledged allegiance 
to ISIL. So they already had a capability. They already had a 
number of individuals who were trained and were ready to carry 
out attacks. We do attribute the downing of that Russian 
airliner to this group that was able to get on board that 
aircraft an IED and to bring it down.
    The great concern about how ISIL has been able to rapidly 
develop capabilities in other countries. In some areas they 
were able to coopt and acquire groups that were already in 
existence. Nigeria is another country, where Boko Haram is now 
the Islamic State of West Africa, where you have several 
thousand individuals who are also on the march, waving the ISIL 
banner.
    I was just out in Singapore last week, where I talked to my 
Asian counterparts, concerned about what we might see in 
Southeast Asia as various terrorist organizations there are 
increasing interaction and connections with ISIL.
    So this is a global challenge. The numbers of ISIL fighters 
now far exceeds what Al Qaida had at its height. We're talking 
about tens of thousands of individuals.
    Vice Chairman Feinstein. Can you estimate the number?
    Director Brennan. Right now we estimate within the Syria-
Iraq area, I think it's between 18,000 and 22,000 fighters, and 
that's down significantly from our estimates last year, where 
we estimated they may have had as many as 33,000 or so 
fighters.
    In Libya, the numbers range between 5 to 8,000 or so. 
Inside of Egypt, there are several hundreds, if not over a 
thousand hard-core fighters inside of the Sinai that are a 
combination of individuals who were formerly of Ansar Bayt Al-
Maqdis as well as others who have joined.
    Inside of Yemen, you have several hundred. In Afghanistan-
Pakistan, it's in the hundreds. So the numbers are significant 
in Iraq-Syria, in Libya. In Nigeria I'd say you probably have 
maybe 7,000 or so. Again, there are hard-core fighters, there 
are adherents, there are logistics specialists, facilitators, 
and others. But the numbers are significant.
    Vice Chairman Feinstein. I want to get in one other thing. 
You said they proselytize by using Twitter, Telegram, and 
Tumblr, that those are the most used. Explain a little bit? I 
fight this huge personal privacy, that you have to keep 
everything private. And yet, when you have the electronic world 
being used as the propaganda mechanism to fuel the lone wolves, 
to goad on the lone wolves, to--and I use the word--inspire the 
lone wolf, for the United States that's a big security problem.
    What do you recommend from an intelligence point of view? I 
know it's on the spot, but we're trying to discuss a bill on 
encryption, using court orders to ask companies to cooperate in 
cases of national security as well as major, major crimes. It's 
just very difficult. Yet we see this propaganda. I read those 
magazines. I see what's happening, and the enormous 
frustration.
    It's not like you go to a library and find something in the 
stacks. This is a few clicks and you pull up all this material.
    What do you think the responsibility of the technical 
sector should be?
    Director Brennan. Well, Senator, I think you put your 
finger on two major issues here. One is that you're absolutely 
right, ISIL has made extensive and sophisticated use of the 
various technological innovations that we have witnessed over 
the past decade, taking full advantage of social media.
    A large part of the ISIL cadre are young individuals who 
have grown up, whether it be in the Middle East, Europe, or 
other places, in an era of great technological development. So 
using these mediums comes naturally to them, and they gravitate 
toward them. But they also are very aware of what mediums 
provide them the greatest security and the greatest protection 
from government insight and oversight of that, and they 
recognize that a lot of these apps provide them the ability to 
communicate with end-to-end encryption and also provide 
impediments to governments to be able to gain access to content 
of their information.
    So I will harken back to what I said earlier. I do believe 
that this committee and others really need to continue to have 
the discussion, that is going to be a national discussion, 
about the appropriate role for the government in an area where 
the private sector owns and operates the worldwide Internet. We 
know that the Internet does not respect sovereign borders, so 
it's not just a question of what the United States is able to 
do; it's what the norms and standards are going to be across 
the globe.
    I do not believe that there is a national consensus right 
now, even within the Congress or the Executive Branch, about 
what that appropriate role is for law enforcement, for 
intelligence agencies, in terms of being able to have the basis 
and the foundation to be able to protect their fellow citizens 
from what can happen in that digital domain, whether it's with 
the propagation of propaganda that these organizations are 
involved in, or whether or not they're actually directing and 
training and inciting individuals.
    But also the vulnerability of our critical infrastructure, 
as well as our way of life here, to disabling and destructive 
malware that can be deployed by nation-states or organizations 
that have that capability and the intent, is something that we 
need to come to grips with. We don't want to face the 
equivalent of a 9-11 in that cyber domain.
    So it is a very important and worthwhile debate, and there 
are arguments on all sides about what the government's role 
should be. But when I think about the government's inability to 
be able to follow up on a court order and a warrant that grants 
the government access to some type of device that holds a lot 
of documents that could be inculpatory or exculpatory about an 
investigation, as well as provide investigative leads to 
prevent the next attack, there is something that this 
government has to come to grips with in terms of what is the 
authority, the responsibility, and the role of the government 
in making sure that this country is kept safe from those who 
want to do us harm using that digital domain.
    Chairman Burr. Senator Coats.
    Senator Coats. Director, you talked about the territorial 
gains we've had against ISIL in both Iraq and in Syria. But I'd 
like to get an intelligence assessment, the Agency's 
assessment, of what it would look like in Syria, what the 
challenges are, what the intelligence shows the complexity--you 
know, it's a mixed cocktail of opposition groups and so forth. 
So if ISIL is defeated, what are we facing, what are we 
continuing to face, in Syria?
    Whether Assad stays or whether he goes, there is going to 
be significant questions raised as to what we're going to be 
facing. I think there's maybe some people coming to the 
conclusion that all we have to do is defeat ISIS in Syria and 
in Iraq and then everything will be fine. We know that they've 
metastasized to a number of other nations. But my question is, 
what is Syria going to look like if that happens, if and when 
that happens, and what kind of challenges are we going to have?
    Director Brennan. You're absolutely right, Senator. Syria 
is a virulent cocktail of actors, many of which are in violent 
conflict with one another. There are two principal terrorist 
organizations that operate inside of Syria. One is ISIL, that 
we've talked about. The other is Jabhat Al-Nusra, which is Al 
Qaida in Syria, that also has formidable capabilities and a 
presence throughout the country of several thousands of 
fighters, some of them just engaged in the battlefield against 
President Assad, but also some who are plotting to carry out 
terrorist attacks outside of Syria.
    So what we want to do is to be able to destroy those two 
terrorist organizations. As you well know, the U.S. Government 
supports the moderate Syrian opposition, represented on the 
battlefield by the Free Syrian Army. So if we're able to 
eliminate those terrorist groups, there's still a long ways to 
go, though, in order to address some of the outstanding issues 
inside of Syria.
    The Syrian opposition was generated because of concerns 
that the Sunni majority had against the Bashar Assad regime 
that was abusing its authorities and its powers. So there needs 
to be some resolution of outstanding confessional tensions 
between Shia and Sunni. You have Christians, you have Druze, 
you have others inside of Syria.
    This is where we believe that Bashar Assad needs to depart 
the Syrian political scene so there can be a more 
representative and legitimate government that's able to preside 
over the Syrian country. But in addition to that, you have 
tensions between the Syrian Kurds in the northern part of Syria 
and the Arabs in the rest of the country.
    So there is a lot of tensions. It's very similar in some 
respects to that cocktail that exists within Lebanon, where the 
multi-confessional nature of the country really has been a 
serious impediment for Lebanon to have a functional political 
system. So we have a long way to go, but the important thing is 
to destroy the terrorist organizations there, bring the 
conflict down, stop the bloodshed, bring in the humanitarian 
assistance that the Syrian people so richly deserve and need, 
and then be able to make sure that we're able to develop a 
governance structure that is going to be representative of the 
Syrian people and be able to address the reconstruction of the 
country, which is going to cost billions upon billions of 
dollars.
    Senator Coats. Given the Russian involvement in Syria now 
and whatever decisions they make relative to either Assad 
remaining or Assad leaving, how does that complicate the 
resolution for some kind of a settlement, ceasefire, or 
whatever?
    Director Brennan. Well, as you know, Russia brought its 
military force to bear last September in Syria with aircraft, 
artillery, and personnel, as a way to prevent what they saw as 
an imminent collapse of the Bashar Assad regime. They have 
bolstered the regime forces and they are involved right now in 
carrying out strikes against the opposition.
    We work very closely and talk with the Russians about how 
to bring this conflict down. We work with them to try to see 
what we can do on the counterterrorism front. But I have been 
disappointed that the Russians have not played a more 
constructive role in terms of leveraging its influence inside 
of Syria to bring the Syrian regime and military forces down in 
terms of their engagement and to be more helpful as far as a 
negotiating track.
    This problem of Syria is not going to be resolved on the 
battlefield. It has to be resolved on the political front. 
Secretary Kerry has been working very hard and long to try to 
stimulate some traction there. The Russians I believe can do 
more, both in terms of the restraint that they can put on the 
Syrian forces, but also more constructive engagement on the 
political front.
    Senator Coats. Is Assad stronger today or less, weaker, 
today than he was a year ago?
    Director Brennan. A year ago, he was on his back foot as 
the opposition forces were carrying out operations that really 
were degrading the Syrian military. As a result of the Russian 
military intervention, he is in a stronger position than he was 
in June of last year.
    Senator Coats. Does that enhance the ability to reach a 
diplomatic solution or does it lessen the ability to do that?
    Director Brennan. Again, it depends on how Russia decides 
to exercise its influence. But right now the strengthened 
Syrian military and Russian unwillingness to use the leverage 
that it has has made it I think more difficult.
    Senator Coats. It sounds like the Russians have put 
themselves in a position which we hoped they'd never be in.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much.
    Mr. Director, just a quick comment on encryption since it 
has come up. It's important to remember that if encryption is 
restricted in the United States, it will still be very easy to 
download strong encryption from hundreds of sources overseas. 
In my judgment, requiring companies to build back doors in 
their products, to weaken strong encryption, will put the 
personal safety of Americans at risk at a dangerous time. I 
want to make it clear I will fight such a policy with 
everything I have.
    Now, with respect to my first question, Mr. Director, I 
want to talk about accountability at the CIA. The Agency's 2013 
response to the very important report on torture stated that 
the Agency agreed that there were--and I quote here--
``significant shortcomings in CIA's handling of accountability 
for problems in the conduct and management of CIA activities.''
    The document goes on to state that--and I quote here--``The 
CIA must ensure that accountability adequately extends to those 
responsible for any broader systemic or management failures.''
    It has now been three years since the CIA said that. Is it 
still the case that no one has been held accountable for the 
systemic failures that the Agency has acknowledged?
    Director Brennan. First of all, Senator, I want to say that 
I respectfully disagree with your opening comments. First of 
all, U.S. companies dominate the international market as far as 
encryption technologies that are available through these 
various apps, and I think will continue to dominate them. So, 
although you are right that there's the theoretical ability of 
foreign companies to be able to have those encryption 
capabilities that'll be available to others, I do believe that 
this country and this private sector is integral to addressing 
these issues, and I encourage this committee to continue to 
work on it.
    The Agency over the course of the last several years took 
actions to address the shortcomings that we have fully 
acknowledged in the detention and interrogation program. There 
was individual accountability that was taken, as well as 
accountability for some of those management and systemic 
failures. We'll be happy to address in a different setting the 
details of those accountability steps that I think the 
committee is aware of.
    Senator Wyden. I want to make sure I heard that right. I 
believe you said that individuals have been held accountable 
for systemic failures. If that's the case, I certainly think 
that's constructive. I will say we will await your classified 
response so we have more details on that. But I heard you say 
there has been individual accountability and I'd like to see 
the details on that.
    Director Brennan. Right. Any type of systemic failure is 
going to be related to the individual's failure to either 
provide the type of management and oversight or the 
performance. So there is a combination of factors that 
contribute to systemic shortcomings.
    Senator Wyden. Were individuals held accountable? It's a 
yes or no answer.
    Director Brennan. Yes.
    Senator Wyden. Okay. I will look forward to getting that 
response and I appreciate that because I think that's very 
important.
    Let me wrap up with a question about an upcoming policy 
that we're all going to be tackling here on the committee. 
Section 702 of the Foreign Intelligence Surveillance Act is up 
for renewal or expiration next year. The Office of the Director 
of National Intelligence has disclosed that under Section 702 
the CIA routinely conducts warrantless searches for the emails 
and other communications of specific Americans, and in the year 
before the CIA conducted nearly 2,000 of these warrantless 
searches.
    In my judgment, if there's evidence that an American is 
involved with terrorism or espionage, the government ought to 
pursue that lead aggressively. Agencies can get a warrant to 
read the person's emails and in emergency situations, which I 
strongly back, they can even obtain the communications right 
away and get judicial review afterwards.
    My question is: If there was a rule that said the CIA could 
only search for Americans' communications under Section 702 if 
the Justice Department has obtained a warrant, with the 
exception for the emergency situation or when a person is in 
danger, would the CIA be able to comply with that rule?
    Director Brennan. I will have to get back to you. That's a 
complicated issue and I don't want to give you an off-the-cuff 
response. I want to make sure that you get the answer that that 
question deserves.
    Senator Wyden. Fair enough. I would like that in writing. 
Could we have that, say, within two weeks?
    Director Brennan. We will do our best to do that, 
absolutely.
    Senator Wyden. I think two weeks ought to be sufficient, 
Mr. Director, and I appreciate the fact that in both areas 
you're going to get back to me. We'll look at what part of the 
response has to be classified and what part can be discussed in 
public. But both with respect to individual accountability on 
torture and this question of 702, I look forward to your 
response.
    Director Brennan. Thank you, Senator.
    I should point out also, I think something that you would 
be appreciative of is that the Agency has appointed a privacy 
and civil liberties officer that is a full member of our senior 
staff, that we want to make sure is going to be fully involved 
in all of the activities that the CIA is engaged in, to make 
sure that we are appropriately protecting the privacy and civil 
liberties of our citizens.
    Senator Wyden. I look forward to meeting that individual. 
Has the person been appointed? Are they available to meet with 
members now?
    Director Brennan. The person's been appointed and is 
operating within the CIA. This is his second or third week.
    Senator Wyden. Please ask that person to make an 
appointment at a time of his convenience with me.
    Director Brennan. Surely.
    Senator Wyden. Thank you.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Director Brennan, thank you for being here 
with us today. We get to see you often. Seldom do we get to see 
you in a public session like this. In public comments, our 
military leaders, the Director of National Intelligence, and 
others say over and over again that they feel we're facing more 
threat from more directions than ever before. Do you share that 
assessment?
    Director Brennan. Yes, I do.
    Senator Blunt. And what kinds of things has the CIA done to 
be more agile in dealing with more threats from more directions 
than ever before?
    Director Brennan. As I noted earlier, we embarked on this 
modernization effort to try to make sure that we're able to 
take full advantage, optimal advantage, of the great expertise 
and capabilities that we have within the organization. I am a 
very strong proponent of integrating capabilities so that we're 
not attacking these problems in individual streams. That's why 
we set up our mission centers, where we have our regional and 
functional mission centers, where we can bring to bear not just 
our clandestine collection capabilities and our all-source 
analytic capabilities, but our open source capabilities and 
insights, our technical innovation, our ability to bring these 
different skill sets and expertise together, because, as you 
noted, I think that the array of challenges we face--
proliferation with North Korea, the cyber domain, terrorism 
that is plaguing so many countries and that threatens us, 
instability that is wracking these countries--I have never in 
my 36 years of national security service seen a time when there 
is such a dizzying array of issues of national security 
consequence.
    I am constantly going down to the White House, 
participating in National Security Council meetings, 
principals' committee meetings, so that we're able to address 
these issues. That's why I want to make sure that I take full 
advantage of the resources that you have provided to our Agency 
so that we optimize the contributions of Agency officers around 
the globe.
    Senator Blunt. And how much is--all of those, all of those 
threats from all those directions, how much is that complicated 
by what appears to be the new addition of substantial self-
radicalization in the country?
    Director Brennan. These so-called ``lone wolves,'' the ones 
who operate as a result of the incitement, encouragement, and 
exhortations of these terrorist organizations, it is an 
exceptionally challenging issue for the intelligence community, 
security, and law enforcement to deal with.
    The tragic attack in Orlando, we have not been able to 
uncover any direct link between that individual, Mateen, and a 
foreign terrorist organization. But that inspiration can lead 
someone to embark on this path of destruction and start to 
acquire the capability, the expertise, maybe do the 
surveillance, and carry out an attack, without triggering any 
of those traditional signatures that we might see as a foreign 
terrorist organization tries to deploy operatives here.
    So those individual actors, either acting alone or in 
concert with some cohorts, it really presents a serious 
challenge. We're working very closely with FBI, Department of 
Homeland Security, and others to give them whatever 
intelligence we have that might help them identify some of 
these individuals.
    Senator Blunt. I think you've been asked this particular 
question already today, but let me just say again that I think 
we're eager to hear from you the kinds of things you need to 
better deal with this really unique and hard to penetrate self-
radicalization, because you don't have the other contacts that 
all your other sources may come across.
    Let me ask one additional question about China and cyber 
attacks. Last year the President announced a common 
understanding with China's leadership that neither country 
would conduct or knowingly support cyber-enabled theft of 
intellectual property for commercial advantage. In your view, 
does that mean that cyber-enabled theft of intellectual 
property by people from China has ended?
    Director Brennan. No.
    Senator Blunt. Do you see any good-faith effort on the part 
of the Chinese government to crack down on this?
    Director Brennan. I see some effort by the Chinese 
government to follow through on some of the commitments they've 
provided in political channels. There are a lot of entities, 
people, organizations, inside of China, some of them operating 
as part of the Chinese government, some parastatals, some 
working basically on contract. Therefore, we are exceptionally 
vigilant about all the different attack vectors that 
individuals or countries could attempt to use in order to 
penetrate our systems and networks and databases, whether they 
be government systems or private sector, to steal intellectual 
property.
    So I continue to be concerned about the cyber capabilities 
that reside within China, as well as the actions that some 
continue to undertake.
    Director Brennan. Thank you, Director, and thank you, 
Chairman.
    Chairman Burr. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    First of all, Director Brennan, it's good to see you again. 
I want to reiterate once again personal thanks for you and all 
the intelligence professionals who serve day in and day out 
without necessarily the recognition they deserve.
    Senator Blunt and I are leading efforts to recognize some 
of that service in terms of an OSS Congressional recognition. 
We do small things like the Intelligence Professionals Days. 
But I'm blessed to have a lot of the intelligence community in 
Virginia, and I hope you will relay to folks at the Agency how 
grateful we are for what you do day in and day out, number one.
    Number two, I do want to raise some concern in terms of 
your response to Senator Wyden. I think the issue around 
digital security is one of the most complex I've ever been 
engaged with. Encryption, just a small component part of that. 
I think public press has indicated that the terrorists in 
France used Telegram, a Belgian encrypted technology, a Belgian 
encrypted company. Two thousand apps a day are added to the 
iPhone Store. Over half of those are foreign-based entities. 
And to renegotiate or relitigate the idea of whether encryption 
is here or not--encryption makes us safer.
    Now, we have legitimate challenges and issues on how we 
work through a way within our legal structure to get at 
information. I personally believe it would make America less 
safe and do great economic as well as national security harm 
for us to litigate or to mandate in any way a solution set that 
would simply push the bad guys onto foreign-based hardware and 
software.
    As complex as this issue is, it's going to only 
exponentially get more complex as we move into the so-called 
Internet of Things, as we think about sensors on our 
refrigerators and our cars. Something came to my attention 
recently: Think about our kids' toys, which are now 
interactive; 6.4 million information of children were hacked 
into last year. This is only going to grow larger.
    My approach has been to put experts in the room beyond, 
frankly, the capability of some of our individual members, to 
try to help guide us to a solution set. Chairman McCaul and I 
have an approach that way. I still think it is the best one.
    Staff corrected me quickly that Telegram is based in 
Germany, not in Belgium. But the point being that this is an 
international problem. It is not a problem that can be solved 
by America only. It is going to require enormous collaboration.
    What I am so concerned about is that we are--while this 
issue has perhaps disappeared from the newspapers on a daily 
basis, we could see some other event using encrypted technology 
that would then lead us into a quick solution set rather than a 
thoughtful solution set, and getting this wrong would do 
enormous harm to our security and to our I think economic 
preeminence.
    I wanted to raise one issue. Chairman Burr and a number of 
members and I had a trip recently. I think I had--I don't want 
to speak for all the members--some concerns about the ability 
of our European allies in terms of information-sharing. We 
obviously saw the horrific attack in Brussels.
    But as our Nation grieved this week over the killings in 
Orlando, there was also, as you're well aware, that brutal 
attack on a French police officer and wife in front of a child, 
videoed and then exploited outrageously.
    Can you comment on post-Belgium and now post again this 
incident in France, growing collaboration, cooperation, 
information-sharing amongst the Europeans, and in particular 
some concerns I have with our German allies?
    Director Brennan. First of all, thank you for your 
comments, Senator, about the Agency's workforce. I want to 
thank all the Senators who visit Agency officers overseas when 
you travel. It sends a very strong message, powerful message, 
to them that they have the support of their authorizing 
committee here in the Senate.
    We have engaged extensively with our European partners, 
particularly since the Paris and Belgium attacks. But we have 
had longstanding relationships with them on the 
counterterrorism front for many, many years.
    Over the past two months, myself and other senior leaders 
of the intelligence community have traveled out to Europe and 
we've sat down with the heads of the internal and external 
services to talk about our experiences here in the United 
States since 9-11 in terms of how we have been able to bring 
together different capabilities, organizational structures, 
information-sharing mechanisms, IT architectures, in order to 
take advantage of data that's available.
    As challenging as it was here in the United States, we were 
still one government and so we were able to operate within one 
legal system. The challenge for Europe, as you know, is that 
there are 28 countries in the EU, with 28 legal structures, and 
then within each of those countries they have sometimes several 
intelligence and security services. They do not have the 
interconnectivity, either from a mission and legal perspective 
or from an IT perspective.
    So we have talked to them about some mechanisms that we can 
use to better facilitate information-sharing among them, 
because that's the key, is being able to take information, a 
bit of data, and be able to operationalize it at a border, 
security point, or the cop on the street so that he can take 
action.
    So, for example, we, CIA, we share counterterrorism 
information with what's called the Counterterrorism Group--it's 
the CTG; this falls within the EU; it has the EU members as 
well as Norway and Switzerland--so that we're able to push out 
to those 30 countries simultaneously information related to 
terrorism, so that they have the same information, but then 
they know that they can talk to one another about it.
    We have talked to them about different mechanisms that they 
could use to set up some type of system, whether it's EU-based 
or Schengen system based. But they have still I think a ways to 
go. They've made some important progress. There are some of the 
countries in Europe that are much better able to share 
information within their governments and systems, as well as 
across the sovereign borders.
    But this is something that the Europeans are going to have 
to work on, because it's not just a technical or IT solution. 
It is also an issue of how are they going to protect the 
privacy of their individual citizens as they share information, 
what is the threshold for putting in individuals' name and 
biographic data into a database, putting them on a watch list? 
So they're working their way through that, and we are trying to 
provide as much assistance and support as we can.
    Chairman Burr. Senator King.
    Senator King. Thank you.
    I appreciate the question and the answer, because I think 
this is very important. It struck me when we were there that 
the political rivalries and the ancient relationships between 
these countries was going to make it very difficult for them to 
exchange directly with one another. Therefore, some neutral 
Europol or, as I think CTG, it seems to me that's got to be the 
answer. I encourage you to continue to encourage them, because 
unless they get a handle on this they're going to only be as 
strong as their weakest link, particularly when you have a 
situation of open borders and not sharing. That's a disaster 
waiting to happen. In fact, it has happened several times.
    You mentioned that you're a great believer in integrating 
the CIA's capabilities and the reorganization. I support that, 
that concept. But, as you know, I have concerns about possible 
loss of analytic integrity when you combine operations, put 
operations and analysis in the same box.
    Could you update us on efforts to ensure the analytic 
integrity of the intelligence as part of this reorganization?
    Director Brennan. It's a legitimate concern, and it's one 
that the Agency has had to deal with over the course of many 
years, because the Counterterrorism Mission Center has its 
roots in the Counterterrorism Center that was established in 
the 1980s, where analysts and operations officers were 
commingled in the same area.
    I headed up the analytic effort inside of CTC back in the 
early 1990s and I was aware that we needed to make sure that we 
maintained that objectivity and integrity. Those safeguards and 
some of the techniques that we used to make sure that there 
maintains that objectivity and integrity is part of the 
instruction in our career analyst program, the CAP training 
program that all analysts go through.
    We also want to make sure that we have the senior analysts 
and senior managers mindful about the respective 
responsibilities of analysts. The rubric ``analysis'' covers 
many different areas. Analysis drives a lot of covert action. 
It drives a lot of clandestine collection.
    Senator King. I just don't want the covert action to drive 
the analysis.
    Director Brennan. That's right, and there needs to be that 
separation in terms of the independence. I must say that the 
analysts that I know are very, very--they jealously guard that 
analytic integrity, as well they should. So we want to make 
sure that it's built into the system. So there is an issue, but 
I have been satisfied that we've been able to maintain that 
objectivity and integrity while also getting the benefits of 
that collocation.
    Senator King. A quick question: How does the intelligence 
community and the CIA in particular assess the Iranians' 
compliance with the JCPOA thus far?
    Director Brennan. So far, so good. So far, so good.
    Senator King. Another question about organization of the 
CIA. It seems to me we have to distinguish between effort and 
effectiveness. Do you have a standard procedure that measures 
effectiveness of programs, after-action reviews, assessments? 
We've got to understand what's working. My question is is there 
some systematic way within the Agency of assessing what is 
working and how it's working?
    Director Brennan. A number of ways, Senator. One is that 
our Inspector General has a regular review of a number of our 
programs to see how they're operating, make sure they're 
consistent with the law. But also inherent in those reviews are 
looking at how effective they've been.
    But in the area that usually generates the most concern and 
controversy, which is in covert action, we have set up last 
year a new office called the Covert Action Measures of 
Effectiveness Office, where we have senior officers working and 
reviewing all of those covert action programs to make sure that 
we understand what's the efficacy of the program, not just 
whether or not we have reached the milestones that have been 
established for these programs, but how effective and 
efficacious has it been in terms of realizing objectives that 
have been set out.
    So a number of ways that we have established these reviews 
and metrics. We'd be happy to provide you additional 
information.
    Senator King. I appreciate that. One of my mottoes in life 
is: Does it work, and how do you know? I appreciate your 
attention to that.
    Finally, there hasn't been an IG at the CIA for 17 months 
or so. Why the delay? Is there a nomination forthcoming? I 
think this is a very important, one of the most important 
positions in government, particularly in the intelligence 
agencies, which don't have the oversight that other more public 
agencies do.
    When are we going to get an IG nomination?
    Director Brennan. The Inspector General of CIA is one of 
three officers within CIA who are presidentially appointed and 
Senate-confirmed, and so therefore is the prerogative of the 
President, the White House. So we have had an acting IG, the 
deputy, who is presiding over that office. I'd like to think 
that I would be seen as prescient today if I were to say that 
such a nomination may be forthcoming soon.
    Senator King. I hope you will convey back to the 
Administration the importance that this committee puts on that 
position and that we believe an appointment in the immediate 
future is appropriate.
    Director Brennan. I will do my best to do that.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you.
    Director Brennan, it's good to have you here again. I 
apologize, I have not been present in person. I've been in the 
Intelligence Committee's equivalent of a makeshift daycare and 
I've been listening intently. Chairman Burr and I discussed 
letting him babysit my son so I could come out and ask 
questions, but we were afraid it would land both of us in child 
protective services.
    I did, however, hear his opening statements and many of the 
other statements of members of the committee, thanking you on 
behalf of all the men and women who serve at the CIA, and I 
want to associate myself with those comments. In many cases, 
they face even more hardships and risks than do our troops and, 
while our troops get recognition appropriately at ball games or 
when they walk through airports and people buy them beers or 
meals, obviously your officers do not, and they deserve all the 
recognition that our troops get as well.
    I want to discuss cooperation with our intelligence 
community from Silicon Valley, specifically Twitter and a 
company called DataMiner. According to the Wall Street Journal 
from May 8, as well as some other media reports, DataMiner, 
which is owned in part by Twitter and is the only company 
authorized to access the full real-time stream of public tweets 
that Twitter has, recently cooperated with the CIA, but just a 
few weeks ago ended that cooperation. So our intelligence 
community no longer has access to DataMiner's information.
    Could you comment on these reports?
    Director Brennan. It appears as though DataMiner was 
directed to not provide its service to CIA and the intelligence 
community, and so therefore we need to be able to leverage 
other capabilities in order to make sure that we have the 
insight that we need to protect this country.
    Senator Cotton. So those reports are correct?
    Director Brennan. I am not going to dispute them.
    Senator Cotton. The Wall Street Journal also reported that 
the CEO of Twitter, Jack Dorsey, directed DataMiner to stop the 
contract because he was worried about, quote, ``the optics,'' 
end quote, of helping intelligence agencies. Do you believe 
that to be accurate?
    Director Brennan. I do not know his motivation for any 
corporate decision he may have made. But I have no basis to 
dispute that.
    Senator Cotton. The Wall Street Journal also reports that 
among customers of DataMiner remains RT, Russia Today, a 
propaganda outlet of Vladimir Putin's government, which Putin 
has said is, quote, ``trying to break the Anglo-Saxon monopoly 
on global information streams,'' end quote.
    To your knowledge, is Russia Today a client of DataMiner?
    Director Brennan. I believe so. I'm not certain of that, 
but I don't have any information that they have been excluded 
from their services.
    Senator Cotton. Is it disappointing to you that an American 
company would sell its product to Russia Today, a propaganda 
arm of the government of Russia, yet not cooperate with the 
United States intelligence community?
    Director Brennan. I'm disappointed that there is not more 
active cooperation consistent with our legal authorities that 
may be available from the U.S. private sector.
    Senator Cotton. Thank you.
    I want to turn now to the Open Skies Treaty. The STRATCOM 
commander, Admiral Haney, has testified that the Open Skies 
Treaty, quote, ``has become a critical component of Russia's 
intelligence collection capability directed at the United 
States,'' end quote. Do you agree with that statement from 
Admiral Haney?
    Director Brennan. Admiral Haney would be best positioned to 
make a public comment like that, and I'd be happy to look into 
it and get back to you separately.
    Senator Cotton. DIA Director General Stewart has testified: 
``The Open Skies construct was designed for a different era and 
I'm very concerned about how it's applied today.'' He further 
said: ``The things that you can see, the amount of data you can 
collect, the things you can do with post-processing, allows 
Russia in my opinion to get incredible foundational 
intelligence on critical infrastructure, bases, ports, all of 
our facilities. So from my perspective it gives them a 
significant advantage.'' End quote.
    Can Russia use post-processing analysis to enhance their 
Open Skies collection, as General Stewart has suggested?
    Director Brennan. There have been tremendous technological 
advancements since Open Skies was first established, and 
therefore I'm sure that Russia and others take advantage of 
those technological developments in order to advance their 
intelligence collection capabilities.
    Senator Cotton. Do you believe that these processes and 
procedures on digital images and the advances in technology 
might allow Russia to exceed the limits imposed by the Open 
Skies Treaty?
    Director Brennan. I would have to take a look into how 
those capabilities could be used to exceed those limits.
    Senator Cotton. Thank you. My time has expired. Thank you 
again for your appearance today.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    Welcome, Director Brennan. You talked a little bit in your 
opening statement, you outlined the sort of disconnect between 
the real progress that has been made with ISIL in terms of 
kinetic progress, in terms of limiting their financial 
resources, and the reality of inspired terrorist attacks that 
have global reach, including here in the homeland, as we've 
seen this week.
    What progress is being made in degrading ISIL's ability to 
inspire terrorist acts through the digital or even traditional 
media, and how--have we learned how to measure that progress?
    Director Brennan. Well, what we're trying to do is to go 
upstream and find out who is responsible for spewing this 
information into the Internet that inspires individuals to 
carry out these attacks. So, working with our military 
partners, we are trying to make sure that the appropriate 
actions are taken in Syria and Iraq, where a lot of this 
emanates from.
    In addition, we are trying to share information with as 
many of our global partners as possible so that they can be 
attuned to individuals who may be involved in these activities, 
because there's not just the upstream activity; there is the 
downstream propagation of this.
    But it also gets to issues that we were talking earlier 
about, which is what is the government's role as far as being 
able to limit this type of material, both in terms of what its 
legal authorities are as well as what its technical 
capabilities are to prevent this type of propagation of this 
poison that's coming out from them.
    Senator Heinrich. Do you feel like you have good 
cooperation from our Arab allies on this front?
    Director Brennan. We have very strong cooperation from a 
number of Arab states and partners that we are actively working 
with in this area, yes.
    Senator Heinrich. Director, you and the Vice Chair noted 
the inherent security challenge of surveillance and the kind of 
work that you do in an age of ubiquitous encryption. One of the 
challenges is the encryption horse has left the barn. Nothing 
we can do at this point can take access to that technology away 
from our enemies, away from ISIL, or, for that matter, anyone 
else in the world, when you can simply go on line and download 
Telegraph onto your phone or your device anywhere in the world.
    But if we're not careful about how we address these 
challenges, we could certainly mandate weakness into our own 
digital systems, potentially putting the personal and financial 
records of Americans at risk from hostile actions both from 
state-level actors and from criminal actors. I think if we 
mandate sort of a 19th century solution to a 21st century 
problem, we could also see a number of real economic activity, 
real jobs, migrate overseas to avoid those perceived solutions.
    So it's clear to both myself and a number of my colleagues 
that we need to have continued conversations around this. They 
need to be technologically grounded. I know Senator Warner 
wrote and I've co-sponsored a bill that seeks to set up a 
commission that would include perspectives from intelligence, 
law enforcement, and the business and technology communities. 
Do you have a perspective on that legislation?
    Director Brennan. First of all, let me say that I strongly 
support encryption as a capability that protects our way of 
life, our prosperity, our national security. But at the same 
time, I fully agree with both you, Senator Warner, Senator 
Wyden, and others that we need to have the opportunity to deal 
with this new environment of the digital domain, so that the 
government can appropriately safeguard its interests, its 
citizens, its future. And that requires the experts to be able 
to get together the legal, the technical, the practitioners, to 
find some way that is not going to be perceived as a back door, 
but it's going to allow the government to legitimately carry 
out its responsibilities while not compromising the great 
benefits that accrue to encryption.
    I don't know whether or not as an Executive Branch officer 
I'm allowed to sort of endorse a piece of a legislative 
initiative, but I have talked to other members of the Congress. 
I think a Congressional commission on this issue is something 
that really could do a great service, because this is not just 
a government-only issue. It is largely a private sector issue, 
and there needs to be an understanding between the private 
sector and the government about what our respective roles and 
responsibilities are going to be, to be able to find some type 
of solution that's able to optimize what it is that we're all 
trying to achieve, which is security, privacy, liberty, 
prosperity, in a technologically rich world that is going to 
continue to evolve.
    So I encourage you to continue to tackle this issue and 
also to educate the American people about what it is, so that 
they don't fear the government's role, which is what happens 
right now because they don't understand it. Then we need to 
make sure that they understand that that frontier is just like 
the physical domain and the maritime domain; we have an 
obligation to protect our people.
    Senator Heinrich. Thank you for your perspective on that.
    Thank you, Chair.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Director Brennan, thanks for being here 
again. You helped lead or did lead, when President Obama was 
President-Elect Obama in 2008, the intelligence transition team 
as part of your responsibility to be able to brief the future 
President at that time on some of the issues that were blinking 
red, I think the term was used, on the intelligence community.
    If you were helping organize for that next transition, 
because we'll have a new President next year, what are the key 
things you could articulate right now are blinking red for the 
new President?
    Director Brennan. Cyber certainly. That individual, whoever 
is elected, will need to use their all four or eight years in 
order to tackle this issue, because it's going to take time in 
order to come up with the types of understandings that are 
necessary.
    Terrorism is going to continue to plague us. That's related 
to the cyber issue and how we're going to make sure that FBI 
and NSA and CIA and others are able to do their job to protect 
this country.
    Proliferation is something that we cannot forget about and 
which is brought into stark relief by the activities of North 
Korea and Kim Jong Eun and the continued development of his 
nuclear program and ballistic missile capability, that is a 
threat, not just to the region, but also to us.
    Instability in a number of countries in the Middle East and 
Africa and the lack of governance capabilities within these 
countries, so that they are unable to tackle the political, the 
economic, the societal, the cultural challenges. I am really 
worried about how instability is going to continue to erode and 
corrode some of the foundations of governance and how more and 
more individuals, because of their feelings of being 
disenfranchised from their governments, are now identifying 
with sub-national groups, whether it be with an ISIL or a Nusra 
or a Boko Haram or others. They're not identifying themselves 
as Somalis, Nigerians, or Yemenis. They're identifying 
themselves as part of a confessional group or a terrorist 
organization.
    That is a very, very disturbing trend that I believe that 
this country can play a role in trying to help address. We 
cannot solve it on our own.
    Senator Lankford. Do you think that we would have less 
proliferation of ISIL and ISIS, whatever you want to call them 
today, we would have less of the movement of terrorism 
worldwide, if there was not a safe haven in Syria and Iraq?
    Director Brennan. That is a big, big part of it. We need to 
take away their safe haven, because it gives them the 
opportunity to use these lands to train and to fight, but also 
to gain revenue. Their control of large cities like Mosul and 
Raqqa and these population centers, as well as oil fields, it 
generates revenue, not just to keep their fighters on the 
battlefield, but also to try to support some of these terrorist 
operations.
    Senator Lankford. Are there strike possibilities that are 
out there that could reduce the amount of money that is flowing 
to ISIS right now that we are not taking or that should be at a 
higher tempo?
    Director Brennan. I think the U.S.-led coalition has done a 
good job going after some of these bulk cash sites, as well as 
the oil infrastructure and refining capabilities. It's 
intermingled with a lot of the local and civilians who are 
trying to eke out an existence. So I think the military has 
done a very good job. There's more work to be done. That's 
where intelligence is so important, so we can give them the 
insights into what they can do.
    Senator Lankford. So help me understand the tempo of the 
pro-Syrian forces, including the Russians and others, in their 
air strike tempo compared to our air strike tempo?
    Director Brennan. Unfortunately, they're directing a lot of 
their air strikes and artillery barrages against the Free 
Syrian Army that is trying to unseat Bashar Assad. Just looking 
out over the past two weeks, the amount of air strikes in the 
Aleppo area, where many of the Syrian moderate opposition 
operate, has exceeded the pre-cessation of hostilities totals.
    So yes, the Russians and Syrians have gone after ISIL as 
well as Jabhat al-Nusra, but a large proportion of their 
strikes are directed against what we consider to be the 
legitimate Syrian opposition that are trying to save their 
country from Bashar Assad.
    Senator Lankford. And you anticipate at this point that the 
number of strikes that are out there exceed the cessation of 
hostilities, which seems to be a piece of paper at this point? 
It doesn't seem to be an actual cessation of hostilities.
    Director Brennan. It is holding by a thread, particularly 
in the areas of Aleppo, Latakia, also in the Damascus 
countryside.
    Senator Lankford. Let me ask on the intelligence agreements 
that we have, Open Skies, other things, that we hold to so 
strongly to the letter and the spirit of it. Do the Russians 
also hold to the letter and the spirit of those agreements?
    Director Brennan. We'll have to get back to you in another 
setting on that.
    Senator Lankford. All right. Thank you.
    I yield back.
    Chairman Burr. Senator Hirono.
    Senator Hirono. Thank you, Director Brennan, for being 
here.
    You mentioned in your remarks about CIA modernization and 
the desire to diversify the CIA to be reflective of the 
diversity, not only in our own country, but of course all the 
countries that we deal with in the world. Can you very briefly 
go over what you're doing to increase diversity in the CIA?
    Director Brennan. Over the past three years, we have had an 
initiative--it was called the Director's Advisory Group; it was 
initiated in fact by General Petraeus, my predecessor--on 
trying to advance women in leadership within the Agency. So we 
have had implementation teams that have been working over the 
last three years to make sure that the objectives and goals of 
this study are being operationalized in our promotion and 
assignment panels and other types of programs that we have 
inside the Agency.
    I asked Vernon Jordan, who is a member of our External 
Advisory Board, to spearhead an effort on diversity in 
leadership in CIA, that took a look at all the different facets 
of the Agency in terms of representation and leadership, our 
recruitment efforts, our training and development of officers, 
and why we have fallen short of even federal standards of what 
our diversity composition should look like.
    It was a hard-hitting report and it came up with a number 
of recommendations. We have put together action teams on that 
as well. I have a lead officer who is involved in it. I have 
made mandatory training for my senior leadership team. In fact, 
just about three weeks ago we had several hours of diversity in 
leadership training for the seniormost officers of the Agency. 
They need to be heavily involved in it.
    We think we have fallen short over the past years because 
we've been so driven by crises that we have not paid attention 
to some of these strategic imperatives that we need to. That's 
why we need to have our leaders actively involved in these 
efforts, from development, mentoring, sponsoring, to 
recruitment efforts. I go out to schools, I talk to various 
groups.
    Senator Hirono. That's great. You must have a time frame 
for when you'd like to see some of the results of these kinds 
of efforts. What would that time frame be?
    Director Brennan. Yesterday is the first one. I want to 
make sure that we're able to look at the milestones that we 
need. And it's not just the numbers. I want to make sure that 
we have instituted some of the programs that are going to 
sustain these efforts. It's putting in place the foundational 
elements of this.
    I think then the numbers that we're going to be looking at 
in terms of representation are going to increase over time, but 
I'm most interested in institutionalizing some of these 
changes, so it's not just a study that is forgotten about.
    Senator Hirono. I think that's important.
    You also said in a number of ways during your responses 
that there is the question of what is the role of government 
with regard to encryption as we see entities such as ISIL using 
every means to spread their propaganda and encouraging lone 
wolf acts, not just in our country, but all throughout the 
world. You seemed to indicate that in order for us to determine 
what the appropriate governmental role should be, that one 
approach to addressing the issue of encryption would be a 
commission. I think that's what Senator Warner's bill is, to 
create a commission to enable us to figure out what 
government's role should be, along with input from a lot of 
other folks like you.
    Would you say that is the best way for us? Because you have 
said that the role of government is one that we haven't quite 
figured out.
    Director Brennan. I don't know what the best way is, but I 
just know that it has to be an effort undertaken by the 
government and the private sector, in a very thoughtful manner, 
that looks at the various dimensions of the problem and is 
going to come forward with a number of options, 
recommendations, about how to optimize what we're trying to do 
on the national security, privacy, civil liberties front that 
protects this country and not cede this environment to the 
terrorists and those who want to do us harm.
    I do believe that with the tremendous technological 
advances, like encryption and other things, they are taking 
advantage of the liberties that we have fought so hard to 
defend.
    Senator Hirono. And I think right now, although other 
people have talked about the need to figure out what we're 
going to be doing in this cyber space, I don't think we've put 
in place any kind of a cohesive or coherent process.
    Let me turn to China. The Hague is expected to rule about 
China's claims in the South China Sea soon and it is 
anticipated that the ruling will support the Philippines' case 
that China has made excessive claims about its maritime 
sovereignty. Can you just briefly discuss your assessment of 
what China's response might be to such a ruling, and could the 
expected ruling be a trigger for further escalation by China?
    Director Brennan. Well, in the recent conference, the 
Shangri-La conference in Singapore, the Chinese representative, 
Admiral Sun, made very clear that they don't recognize the 
legitimacy of the arbitration tribunal, nor I think will accede 
to its findings.
    So Secretary Carter made very clear that we certainly do 
recognize that there needs to be this type of arbitration, 
given that there are a number of claimants to some of these 
features in the sea, and it's not just the Philippines; it's 
other countries as well. So there needs to be an agreed-upon 
mechanism that will be able to resolve these outstanding 
disputes.
    I think the United States has made very clear the 
importance of protecting freedom of navigation in that part of 
the world and will continue to take steps to make sure that 
people understand the United States is committed to freedom of 
navigation worldwide.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator.
    Do any Senators seek additional questions? Senator Wyden 
has asked for one.
    [No response.]
    The Vice Chairman also asked me, Director, to ask you a 
couple of questions. She had to leave for an Appropriations 
meeting at 10:30.
    What's your assessment of North Korea's cyber capabilities 
and intentions?
    Director Brennan. I think that the North Koreans have 
developed a cyber capability, as we've seen; some recent 
incidents over the last year or two where it has been employed. 
I think it is something that we need to be concerned about, 
given Kim Jong Un's penchant to use whatever capabilities he 
might have to cause problems.
    So we can get back to the Vice Chairman a more detailed 
answer about their capabilities as well as potential 
intentions.
    Chairman Burr. Great. One last question from the Vice 
Chairman. ISIL's getting all the attention today. They're not 
the only terrorist organization out there. What are we doing 
and how concerned are you on AQAP and other potential 
organizations?
    Director Brennan. The Vice Chairman is absolutely right, 
there are a number of terrorist organizations. Al Qaida in the 
Arabian Peninsula continues to be very active inside of Yemen 
and has several thousand adherents and fighters. There have 
been recent efforts, collaborative efforts, between the United 
States along with the UAE and Saudi Arabia and Yemen, to 
dislodge AQAP from the port city of Mukalla. It was successful; 
it drove them out.
    But there is an active effort under way to continue to 
dismantle and destroy that organization. But also there is the 
organizations in the Af-Pak area, led by the Taliban, the 
Haqqanis, that continue to engage in terrorist attacks; Lashkar 
e-Taiba. We work very closely with the services in the area, 
including the Indians and others, to try to guard against their 
ability to carry out those attacks.
    So this is something that we continue to have to dedicate a 
lot of resources to. As you know, Ayman Zawahiri, the head of 
Al Qaida, still is out there and continues to put out audio 
statements and other things exhorting his followers. So this is 
a continued challenge for us.
    Chairman Burr. Senator Wyden for a question.
    Senator Wyden. Just a quick comment and a fast question. On 
this encryption issue, Director, you have been clear that you 
think that there's a government role here. You got me at 
``hello'' on that. There's no question that there are ways that 
government can strengthen the personal safety of Americans in a 
dangerous time. I, for example, think it makes sense to hire 
people with extensive experience in science and technology, 
like we have, for example, in Oregon's Silicon Forest. I can 
give you plenty of names.
    What I don't want to do, though, is I don't want to go 
backwards on digital security, which is what's going to happen 
if the government, if the Congress, requires that back doors 
are built into the products of this country.
    So we will continue that debate. I just want to make that 
clear as we wrap up.
    Senator Lankford asked an appropriate question with respect 
to briefing a new President, or what would you say to a new 
President. I think I've heard you touch on this, but I'd like 
to get it formally for the record. Director Brennan, if the 
next President of the United States directs the Agency, directs 
the CIA, to resume the use of coercive interrogation 
techniques, how would you respond?
    Director Brennan. I have said publicly that I do not 
believe such aggressive, coercive techniques are necessary. As 
you know, the CIA's detention-interrogation program was 
disbanded, and I certainly while I am Director of CIA have no 
intention of bringing such a program back and would not engage 
in EIT's such as waterboarding and other things, ever.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Burr. Senator King.
    Senator King. A quick question about ISIL in Libya. Any 
chance they're going to get a hold of any of Libya's oil 
capabilities? Because that's where a lot of their revenues have 
come from in Syria and Iraq. How do you assess the security of 
the oil assets in Syria--I mean, in Libya.
    Director Brennan. I don't think anything in Libya is overly 
secure. There have been attempts made and assaults upon some of 
those oil facilities, but to date ISIL has not been able to 
gain control of them. I'll have to get back and see whether or 
not there are sort of pockets of areas where ISIL's been able 
to encroach. But there are some challenges there and there are 
a number of security militias and firms that are in that area 
that have prevented ISIL from taking over. But we'll get you a 
more thorough response.
    Senator King. I know I said it was my final question, but--
--
    Chairman Burr. I knew better.
    Senator King. My wife says I say ``finally'' too much; it 
gets people's hopes up.
    Chairman Burr. She's a smart woman.
    [Laughter.]
    Senator King. Afghanistan, we haven't talked about 
Afghanistan at all. What's your assessment of the security 
situation in Afghanistan? There's a proposed drawdown of our 
troops which has to start some time in the early fall if it's 
going to achieve the 5,000 troop number in January.
    Give us an assessment of the situation? Is there--I guess 
the short question is: Does the government have a chance or is 
Taliban just waiting and they're going to take back over?
    Director Brennan. We're near the height of the fighting 
season. The number of casualties on both sides in terms of the 
ANSF, the Afghan National Security Forces and the Taliban, I 
think are greater this year than we have seen in a long, long 
time, because of the number of engagements. Which means that I 
think the Afghan forces are stepping up and engaging in the 
fight more as U.S. forces have drawn down. But also I think it 
reflects the intensity of the Taliban efforts. They're really 
trying to erode the government hold in a number of areas.
    We have worked very closely with the Afghans, we the U.S. 
Government, to have them better consolidate their forces so 
that they can protect the critical infrastructure in the cities 
and transit routes. But the Taliban is determined, working with 
the Haqqanis, a sub-group of the Taliban. So there is continued 
concern about the Taliban's ability to carry out these attacks, 
both in some of the outlying areas, but also as they try to go 
after the provincial capitals as well as Kabul.
    So it is still uncertain in my mind whether or not the 
Taliban is going to continue to make incremental progress. We 
are providing support to our Afghan intelligence partners so 
that they have the capabilities that they need. But there is 
still a long, hard fight ahead in Afghanistan for the Afghan 
government.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator King.
    Director, thank you. Two takeaways from your testimony that 
I certainly heard that are relevant to today: There'll be an 
increase in global terrorism as more pressure is applied in the 
battle space, and I think that's something that we certainly 
have seen up to this point. There's no reason to expect that 
that doesn't increase. And ISIL has become a global 
organization, and I think sometimes we treat them in a very 
small geographical footprint, but they have very quickly and 
quietly grown to be that global organization.
    Now I'd like to give a closing statement. I'm not sure that 
I've done that before, but I feel compelled. I'm not going to 
speak for the Vice Chairman, but I think she would probably 
associate with most of what I'll say.
    This feud between the tech companies and the intelligence 
community and law enforcement has to stop. Encryption is the 
issue that we describe it as, but this is much more. Technology 
is going to drive the United States economy for the next 50 
years and the global economy as well. It is the secret sauce 
for our children and our grandchildren to have unlimited 
opportunities, not success but opportunities.
    When the Vice Chairman and I committed to at least lay on 
the table a solution to encryption, it was not with the belief 
that we were smarter than anybody else. It's we understood what 
was at stake and we were willing to take the heat. And, as you 
know, Director, we've taken a lot of it. And I don't regret it, 
because I think what we had hoped was that we would start a 
national debate in this country about what the appropriate role 
of government is; that for the American people to understand 
that for our agencies to prevent and protect them, that that 
comes with a price; and that this debate is about what that 
cost might be and what we're willing to accept.
    We can't separate the world based upon who's domained 
domestically and who is domained in foreign countries. That's 
the beauty of the Internet. It really doesn't matter. But if it 
wasn't important to locate in the United States, we'd probably 
have very little manufacturing because most of their customers 
are overseas. But they're here, and they're here for an 
important reason. They're here because we have in our 
foundational structure things that they find important. At the 
top of the list is the rule of law.
    I point to what one tech leader said as the Vice Chair and 
I launched the encryption debate to the level it is today: We 
can't trust a judge on the bench to hear from the intelligence 
community or law enforcement and understand whether somebody's 
met the threshold that they need to reach to access 
communications or data. Well, let me say today: If we've gotten 
to a point where we don't trust a judge on the bench, we have 
just gutted the rule of law in the United States.
    This to me is about so much more than encryption. This is 
about whether the United States is going to be the innovator of 
the world for the next 50 years. It's about what the next 
generation has as opportunities and, oh yes, freedoms, 
protection of personal data, and prevention of terrorist acts.
    If we can't prosecute criminals by a district attorney or 
by a U.S. attorney because they can't gather the information 
they need to make a case in court, then, talking about Orlando, 
we'll talk about crime in every community across this country, 
because we're going to have individuals that commit it that 
walk and live next door to us every day.
    So I used the platform today. I don't think I find 
disagreement from you or from others in law enforcement, either 
nationally or locally, because we've heard from a lot of them. 
But I really believe that we need to take at heart that what we 
do affects the intersection of the rule of law and technology 
in the future, and we're much better off to have that debate 
today than we are to wait until something happens and we need 
it and the pendulum swings too far, a la post-9/11. We did some 
things then that we thought were right. Today, looking back, we 
wouldn't do them again. We all agree.
    This is an opportunity to get this one right, not to go too 
far, but to go to the right place, the right point.
    So, Director, I want to thank you for your testimony. I 
want to thank you for the resolve of your workforce.
    I also want to highlight the professional staff of this 
committee. I think they are incredibly talented, incredibly 
dedicated. They travel to very unpopular spots where your 
officers are, on a regular basis. They do it not to gain 
mileage points; they do it to live up to the mission of this 
committee, which is oversight of your Agency and the rest of 
the intelligence community. On behalf of 85 other members of 
the United States Senate and, oh, by the way, for the American 
people, we are the ones that testify and certify that you do 
things within the letter of the law or a presidential directive 
and that we don't overstep those bounds, and when we do it's 
this committee's responsibility to report it and pull it in. So 
they deserve credit, because they don't get that credit very 
often.
    Please pass to your employees our sincere gratitude for the 
job they do. We look forward to your next visit with us. It 
probably won't be open and there will be some disappointed 
souls in the audience, but we will do it in a much more 
productive way.
    Thank you, Mr. Director.
    The hearing is adjourned.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]
  

                                 [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
